No.
IN THE
SUPREME COURT OF THE UNITED STATES
DEANDRE M. SMITH,
Petitioner,
vs.
STATE OF WISCONSIN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF WISCONSIN
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Deandre M. Smith, by attorney Dana LesMonde,
respectfully moves the court to enter an order permitting him to
proceed in forma pauperis. As grounds for, and in support of his
motion, petitioner states as follows:
1.

Mr. Smith is without funds to prosecute this action and

has been found by the State of Wisconsin to be indigent for the
purposes of all trial and appellate proceedings in this matter.
2.

Pursuant to Chapter 977 of the Wisconsin Statutes, Mr.

Smith has been represented and continues to be represented in this
matter by counsel provided by the Office of the Wisconsin State

Public Defender. The Office of the Wisconsin State Public Defender is
responsible for determining which criminal defendants are indigent
and thus entitled to appointed counsel for representation of criminal
defendants in the Wisconsin state courts. Wis. Stat. §§ 977.06, 977.07.
3.

Mr. Smith was appointed counsel through the Office of

the Wisconsin State Public Defender for representation in the
Wisconsin state courts. He has also been appointed counsel through
the Office of the Wisconsin State Public Defender for representation in
this petition for certiorari.
4.

Undersigned counsel is a private attorney who has been

appointed by the Office of the Wisconsin State Public Defender to
represent Mr. Smith in postconviction proceedings, including in this
petition for certiorari.
5.

Pursuant to United States Supreme Court Rule 39.1, Mr.

Smith has not attached a declaration or affidavit in support of this
motion. Instead, he has attached the Orders Appointing Counsel
reflecting that he was appointed counsel in the state court below.
Specifically,

Mr.

Smith

has

attached

the

order

appointing

undersigned counsel to represent him in this petition for certiorari, as
well as the order appointing undersigned counsel to represent him in
the Supreme Court of Wisconsin.

WHEREFORE, for all the reasons herein, petitioner respectfully
requests that he be permitted to proceed in forma pauperis in this
action.
Dated this 16th day of October, 2020.
Counsel for Petitioner:

/s/ Electronically signed
by Dana Lesmonde
Dana LesMonde
Counsel of record
LesMonde Law Office
354 W. Main St.
Madison, WI 53703
(608) 257-3176
lesmondelaw@outlook.com
Attachment: Orders Appointing Counsel

STATE OF WISCONSIN

7, Rm. 8D, Chamber 8109

For Official Use

Dane County

STATE OF WISCONSIN
v.

Plaintiff,
Case No.

15-CF-207

Deandre M Smith
Defendant.

STATE PUBLIC DEFENDER - ORDER APPOINTING COUNSEL
Name:

Deandre M Smith

SPD Case No:

201303647Z

DOC #:

00522120
3/17/1990

SPD File No:

20P-13-A-F03647

Date of Birth:

Nature of Case:

Case Group #:

1902067

940.19(1) Battery MA 1 Cnts:
Charge Modifier 939.62(1)(a) Habitual Criminality (Prison < = 1 yr)
941.29(2)(a) Felon Possess Firearm
1 Cnts:
Charge Modifier 939.62(1)(b) Habitual Criminality (Prison < = 10 yrs)
940.235(1) Strangulation and suffocation
1 Cnts:
Charge Modifier 939.62(1)(b) Habitual Criminality (Prison < = 10 yrs)

Other Information
Judge:

Hanrahan, B. William

Record Created:

June 12, 2020

Judgment Entered:
Type:

Collateral Review: U.S. Supreme Court

In accordance with Chapter 977 of the Wisconsin statutes, I hereby appoint the following attorney to represent the above named
individual in relation to the above entitled proceedings.
Attorney's Name:
Address:

Dana Lynn LesMonde
354 W Main St
Madison, WI 53703 3115

Attorney Email Address: lesmondelaw@outlook.com
Appointed By:
Joseph N. Ehmann
SPD Office Handling:
Madison

State Bar No:

Attorney Telephone:

1067888
(608) 257-3176

Attorney Fax Number: (608) 442-9494
Date Appointed:
Supervisor ID:
SPD Office Phone:

June 12, 2020
1016411
(608) 266 3440

Dated:

June 12, 2020
Office of the State Public Defender - Notice to Clients - File Retention Policy
When an attorney represents an individual, s/he makes and keeps a file of the documents and work done on the case. Attorneys on staff with the Office of the State
Public Defender (SPD) create and maintain such files for each case. This notice applies only to cases handled by staff attorneys of the Office of the State Public
Defender. If your case has been assigned to a private attorney, please consult that attorney about his or her file retention policy.
Upon the conclusion of the representation in this case, the SPD will, upon your request, deliver the original file or any portion requested, to you, along with any of
your original documents or other property that the SPD has in its possession.
If you do not request your file, the SPD will retain it for a period of at least five years after the matter is closed. At any point during this period, you may request
delivery of the file. If you do not request the file before the end of the five-year period, the SPD may, in its discretion, destroy the file and its contents without
further notice to you.

STATE OF WISCONSIN

7, Rm. 8D, Chamber 8109

For Official Use

Dane County

STATE OF WISCONSIN
v.

Plaintiff,
Case No.

15-CF-207

Deandre M Smith
Defendant.

STATE PUBLIC DEFENDER - ORDER APPOINTING COUNSEL
Name:

Deandre M Smith

SPD Case No:

151305350Z

DOC #:

00522120
3/17/1990

SPD File No:

15P-13-A-G05350

Date of Birth:

Nature of Case:

Case Group #:

1902067

940.19(1) Battery MA 1 Cnts:
Charge Modifier 939.62(1)(a) Habitual Criminality (Prison < = 1 yr)
941.29(2)(a) Felon Possess Firearm
1 Cnts:
Charge Modifier 939.62(1)(b) Habitual Criminality (Prison < = 10 yrs)
940.235(1) Strangulation and suffocation
1 Cnts:
Charge Modifier 939.62(1)(b) Habitual Criminality (Prison < = 10 yrs)

Other Information
Judge:

Hanrahan, B. William

Record Created:

September 18, 2017

Judgment Entered:

July 07, 2015

Type:

Felony: Jury Trial - 2-3 days

In accordance with Chapter 977 of the Wisconsin statutes, I hereby appoint the following attorney to represent the above named
individual in relation to the above entitled proceedings.
Attorney's Name:
Address:

Dana Lynn LesMonde
354 W Main St
Madison, WI 53703 3115

Attorney Email Address: lesmondelaw@outlook.com
Appointed By:
Joseph N. Ehmann
SPD Office Handling:
Madison

State Bar No:

Attorney Telephone:

1067888
(608) 257-3176

Attorney Fax Number: (608) 442-9494
Date Appointed:
Supervisor ID:
SPD Office Phone:

September 18, 2017
1016411
(608) 266 3440

Dated:

September 18, 2017
Office of the State Public Defender - Notice to Clients - File Retention Policy
When an attorney represents an individual, s/he makes and keeps a file of the documents and work done on the case. Attorneys on staff with the Office of the State
Public Defender (SPD) create and maintain such files for each case. This notice applies only to cases handled by staff attorneys of the Office of the State Public
Defender. If your case has been assigned to a private attorney, please consult that attorney about his or her file retention policy.
Upon the conclusion of the representation in this case, the SPD will, upon your request, deliver the original file or any portion requested, to you, along with any of
your original documents or other property that the SPD has in its possession.
If you do not request your file, the SPD will retain it for a period of at least five years after the matter is closed. At any point during this period, you may request
delivery of the file. If you do not request the file before the end of the five-year period, the SPD may, in its discretion, destroy the file and its contents without
further notice to you.

